<html>
<title> - INVESTING IN AMERICA'S ENERGY INFRASTRUCTURE: IMPROVING ENERGY EFFICIENCY AND CREATING A DIVERSE WORKFORCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    INVESTING IN AMERICA'S ENERGY INFRASTRUCTURE: IMPROVING ENERGY 
              EFFICIENCY AND CREATING A DIVERSE WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2019

                               __________

                           Serial No. 116-24
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov                        
                        
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-841 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                      
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
                         Subcommittee on Energy

                        BOBBY L. RUSH, Illinois
                                 Chairman
SCOTT H. PETERS, California          FRED UPTON, Michigan
MIKE DOYLE, Pennsylvania               Ranking Member
JOHN P. SARBANES, Maryland           ROBERT E. LATTA, Ohio
JERRY McNERNEY, California, Vice     CATHY McMORRIS RODGERS, Washington
    Chair                            PETE OLSON, Texas
PAUL TONKO, New York                 DAVID B. McKINLEY, West Virginia
DAVID LOEBSACK, Iowa                 ADAM KINZINGER, Illinois
G. K. BUTTERFIELD, North Carolina    H. MORGAN GRIFFITH, Virginia
PETER WELCH, Vermont                 BILL JOHNSON, Ohio
KURT SCHRADER, Oregon                LARRY BUCSHON, Indiana
JOSEPH P. KENNEDY III,               BILL FLORES, Texas
    Massachusetts                    RICHARD HUDSON, North Carolina
MARC A. VEASEY, Texas                TIM WALBERG, Michigan
ANN M. KUSTER, New Hampshire         GREG WALDEN, Oregon (ex officio)
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
TOM O'HALLERAN, Arizona
LISA BLUNT ROCHESTER, Delaware
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement\1\                                        8
    Prepared statement...........................................     9

                               Witnesses

Daniel R. Simmons, Assistance Secretary, Office of Energy 
  Efficiency and Renewable Energy, Department of Energy..........    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................    93
James E. Campos, Director, Office of Economic Impact and 
  Diversity, Department of Energy................................    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................   103

                           Submitted Material

H.R. 1315, the Blue Collar to Green Collar Jobs Development Act 
  of 2019, submitted by Mr. Rush\2\
H.R. 2019, the Smart Energy and Water Efficiency Act of 2019, 
  submitted by Mr. Rush\2\
H.R. 2041, the Weatherization Enhancement and Local Energy 
  Efficiency Investment and Accountability Act, submitted by Mr. 
  Rush\2\
H.R. 2043, the Home Owner Managing Energy Savings Act of 2019, 
  submitted by Mr. Rush\2\
H.R. 2044, the Smart Building Acceleration Act, submitted by Mr. 
  Rush\2\
H.R. 2088, A Bill to amend the Energy Independence and Security 
  Act of 2007 to reauthorize the Energy Efficiency and 
  Conservation Block Grant Program, and for other purposes, 
  submitted by Mr. Rush\2\
H.R. 2114, the Enhancing State Energy Security Planning and 
  Emergency Preparedness Act of 2019, submitted by Mr. Rush\2\
H.R. 2119, A Bill to amend the Energy Policy Act of 2005 to 
  reauthorize grants for improving the energy efficiency of 
  public buildings, and for other purposes, submitted by Mr. 
  Rush\2\
Letter of April 9, 2019, from David Bradley, Executive Director, 
  National Community Action Foundation, to Mr. Rush and Mr. 
  Upton, submitted by Mr. Rush...................................    46

----------

\1\ Mr. Flores presented Mr. Walden's statement orally.
\2\ The legislation has been retained in committee files and also is 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109300.
Letter of April 10, 2019, from Paula R. Glover, President and 
  Chief Executive Officer, American Association of Blacks in 
  Energy, to Mr. Rush and Mr. Upton, submitted by Mr. Rush.......    50
Letter of April 8, 2019, from George H. Lowe, Vice President, 
  Governmental Affairs and Public Policy, American Gas 
  Association, to Mr. Rush, et al., submitted by Mr. Rush........    51
Report of the Government Accountability Office, ``Recovery Act: 
  Energy Efficiency and Conservation Block Grant Recipients Face 
  Challenges Meeting Legislative and Program Goals and 
  Requirements,'' April 2011, submitted by Mr. Rush\3\
Technical comments on H.R. ___, Department of Energy, submitted 
  by Mr. Rush....................................................    53
Letter of April 10, 2019, from Bryan Howard, Legislative 
  Director, U.S. Green Building Council, to Mr. Rush and Mr. 
  Upton, submitted by Mr. Rush...................................    72
Letter of February 26, 2019, from Abigail Ross Harper, President 
  and Chief Executive Officer, Solar Energy Industry Association, 
  to Mr. Pallone, et al., submitted by Mr. Rush..................    77
Letter of February 26, 2019, from Joni Davis and Stan Sherrill, 
  Vice Presidents, Duke Energy, to Mr. Rush, submitted by Mr. 
  Rush...........................................................    79
Letter of February 27, 2019, from Jason Hartke, President, 
  Alliance to Save Energy, to Mr. Rush, submitted by Mr. Rush....    80
Letter of April 9, 2019, from Randy Bennett, IL Weatherization, 
  et al., to Mr. Pallone and Mr. Walden, submitted by Mr. Rush...    81
Article of July 10, 2018, ``Pa. Auditor General: State failed to 
  spend federal energy assistance funds meant to aid poor,'' by 
  Kate Giammarise, Pittsburgh Post-Gazette, submitted by Mr. Rush    89

----------

\3\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF03/20190410/109300/
HHRG-116-IF03-20190410-SD989.pdf.

 
    INVESTING IN AMERICA'S ENERGY INFRASTRUCTURE: IMPROVING ENERGY 
              EFFICIENCY AND CREATING A DIVERSE WORKFORCE

                              ----------                              


                       WEDNESDAY, APRIL 10, 2019

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Bobby L. Rush (chairman of the subcommittee) presiding.
    Members present: Representatives Rush, Peters, Sarbanes, 
McNerney, Tonko, Loebsack, Schrader, Kennedy, Veasey, Kuster, 
Kelly, Barragan, O'Halleran, Blunt Rochester, Pallone (ex 
officio), Upton (subcommittee ranking member), Latta, Rodgers, 
McKinley, Griffith, Johnson, Bucshon, Flores, Hudson, Walberg, 
and Duncan.
    Staff present: Adam Fischer, Policy Analyst; Rick Kessler, 
Senior Advisor and Staff Director, Energy and Environment; 
Brendan Larkin, Policy Coordinator; John Marshall, Policy 
Coordinator; Elisabeth Olson, FERC Detailee; Tuley Wright, 
Energy and Environment Policy Advisor; Mary Martin, Minority 
Chief Counsel, Energy and Environment; Brandon Mooney, Minority 
Deputy Chief Counsel, Energy; Brannon Rains, Minority Staff 
Assistant; and Peter Spencer, Minority Senior Professional 
Staff Member, Energy and Environment.
    Mr. Rush. The committee hearing is called to order. And I 
recognize myself for 5 minutes for an opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    I want to welcome everyone to today's hearing entitled 
``Investing in America's Energy Infrastructure: Improving 
Energy Efficiency and Creating a Diverse Workforce.''
    This hearing will focus on a series of bills designed to 
make Americans' homes, businesses, and energy infrastructure 
more efficient and cost-effective, while also investing in a 
diverse workforce to build, operate, and manage this 
infrastructure.
    Unfortunately, our colleagues, our colleague Mr. Welch had 
to return to his home State of Vermont and will miss today's 
hearing. But as we all know, he has been a strong supporter of 
the HOMES Act and Smart Building Acceleration Act, and he sends 
his regrets in not being able to speak today on those two 
important measures.
    Most of today's bills enjoy bipartisan support. And I would 
like to thank Ranking Member Upton for working with my office 
in cosponsoring H.R. 2114, the Enhancing State Energy Security 
Planning and Emergency Preparedness Act. This bill would 
provide much-needed assistance to State Energy Offices to plan 
for and respond to energy disruptions from both physical and 
cyber threats. And I look forward to moving it forward.
    While I support each of the bills before us, I want to 
concentrate my remarks on H.R. 1315, the Blue to Green Collar 
Jobs Act, which continues to be one of my top priorities.
    H.R. 1315 is in essence a jobs bill designed to train 
underserved groups, including women, minorities, veterans, 
unemployed energy workers, and returning citizens, among 
others, for the energy jobs and energy careers in the present 
and the future.
    Today marks the second hearing on this important bill, 
providing an opportunity to hear directly from DOE, as my 
Republican colleagues have repeatedly requested. It is my hope 
that following this hearing the minority side will finally 
accept my repeated offer to work with my office on this bill as 
we move it through this legislative process.
    Despite their refusal to work with me following the first 
hearing on this bill, my office has made several changes to the 
bill to strengthen it and to make it much more inclusive.
    In addition to opening up the grant program for training in 
nuclear energy and carbon testing and storage, we have also 
clarified that grants and assistance would be made available to 
labor unions and qualified youth and conservation corps.
    We strengthened the reporting requirements and 
accountability measures for evaluating performance and impact, 
while also streamlining the definition for underrepresented 
groups through the bill, and adding language to prevent the 
duplication of programs at DOE.
    Relying on the technical assistance comments that we 
received from DOE from both the current and previous 
administrations, I am confident that the program established in 
H.R. 1315 will go a long way in producing actual results, in 
the form of jobs filled, rather than the ceaseless and 
nonsensical talk and planning that has too often been the norm.
    It is my hope that following today's hearing my Republican 
colleagues will finally agree to discuss actual substance with 
my office so we can move this much-needed bill forward.
    I look forward to hearing from today's panel of DOE 
officials on all of the bills before us here today. And I would 
like to call now on my good friend and colleague from my 
neighboring State of Michigan, Ranking Member Upton, for his 
opening statement.
    [The prepared statement of Mr. Rush follows:]

                Prepared Statement of Hon. Bobby L. Rush

    I would like to welcome everyone to today's hearing 
entitled ``Investing in America's Energy Infrastructure: 
Improving Energy Efficiency and Creating a Diverse Workforce.''
    This hearing will focus on a series of bills designed to 
make Americans' homes, buildings and energy infrastructure more 
efficient and cost-effective, while also investing in a diverse 
workforce to build, operate, and manage this infrastructure.
    Unfortunately, our colleague Mr. Welch had to return to 
Vermont and will miss today's hearing, but as we all know he 
has been a strong supporter of the HOMES Act and Smart Building 
Acceleration Act and he regrets not being able to speak on 
those two measures today.
    Most of today's bill enjoy bipartisan support and I would 
like to thank Ranking Member Upton for working with my office 
in cosponsoring H.R. 2114, the Enhancing State Energy Security 
Planning and Emergency Preparedness Act.
    This bill would provide much-needed assistance to State 
Energy Offices to plan for and respond to energy disruptions 
from both physical and cyber threats, and I look forward to 
moving it forward.
    While I support each of the bills before us today, I want 
to concentrate my remarks on H.R. 1315, the Blue to Green 
Collar Jobs Act, which continues to be one of my top 
priorities.
    H.R. 1315 is a jobs bill designed to train underserved 
groups, including women, minorities, veterans, unemployed 
energy workers, and returning citizens, among others, for the 
energy jobs and careers of the present and future.
    Today marks the second hearing on this important bill, 
providing an opportunity to hear directly from DOE, as my 
Republican colleagues have requested.
    It is my hope that following this hearing, the minority 
side will finally accept my repeated offers to work with my 
office on this bill as we move it through the legislative 
process.
    Despite their refusal to work with me following the first 
hearing on this bill, my office has made several changes to the 
bill to strengthen it and make it more inclusive.
    In addition to opening up the grant program for training in 
nuclear energy and carbon capture and storage, we have also 
clarified that grants and assistance would be made available to 
labor unions and qualified youth and conservation corps.
    We strengthened the reporting requirements and 
accountability measures for evaluating performance and impact, 
while also streamlining the definition for underrepresented 
groups throughout the bill and adding language to prevent the 
duplication of programs at DOE.
    Relying on the technical assistance comments we received 
from DOE from both the current and previous administrations, I 
am confident that the program established in H.R. 1315 will go 
a long way in producing actual results, in the form of jobs 
filled, rather than the ceaseless talk and planning stages that 
has too often been the norm.
    It is my hope that following today's hearing my Republican 
colleagues will finally agree to discuss actual substance with 
my office so we can move this much-needed bill forward with 
bipartisan support.
    As we have heard time and time again in numerous hearings 
on this topic, there are tens of thousands of jobs available 
right now, today, and employers are begging for trained, 
qualified candidates to fill those openings.
    My office remains ready and willing to work with any Member 
to address any legitimate concerns that will ultimately help to 
put thousands of hardworking yet overlooked and underserved 
Americans back to work.
    I look forward to hearing from today's panel of DOE 
officials on all of the bills here before us, and now I would 
like to call on my friend and colleague, Ranking Member Upton 
for his opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, my friend and chairman, for 
holding this hearing on eight Department of Energy workforce 
and efficiency bills. I am pleased to see that our bill from 
the last Congress is included, H.R. 2144, the Enhancing State 
Energy Security Planning and Emergency Preparedness Act.
    You and I worked together on that bill. And it passed the 
House by a voice vote. Somehow we have to get it through the 
Senate. I look forward to seeing this bill get across the 
finish line in this Congress.
    As you know from our oversight work, our energy 
infrastructure is comprised of a vast network of energy and 
electricity delivery systems. These intricate and highly 
interdependent systems enable almost every aspect of our daily 
life. The Nation's economy, security, and the health and safety 
of its citizens depends upon the reliable and uninterrupted 
delivery of fuels and electricity, which is why it is so 
important to stay on top of maintenance and modernization.
    And at the same time, we have to also remain vigilant when 
it comes to energy security planning and emergency 
preparedness.
    Since the inception of the Department of Energy's State 
Energy Program in 1975, the manner in which energy and power is 
generated, transmitted and delivered continues to rapidly 
change and evolve. Recent hurricanes, fires, and cyber-related 
events have raised real concerns about the security and 
resiliency of the Nation's energy and electricity systems. And 
States have emphasized the need to prioritize energy security, 
energy planning, and energy infrastructure protection.
    H.R. 2144 will indeed modernize and reauthorize DOE's State 
Energy Program through 2025. It is a good bill that will help 
States with the tools to plan and prepare for energy security 
emergencies. I would encourage all of my colleagues to support 
it.
    We also have a couple over bipartisan bills from the last 
Congress: H.R. 2019, the Smart Energy and Water Efficiency Act; 
H.R. 2044, the Smart Building Acceleration Act. These bills 
will help save energy in public buildings and encourage the 
adoption of innovative technologies to conserve water in 
communities across the country. These are good bipartisan 
bills. I look forward to receiving input from DOE to further 
perfect them.
    Unfortunately, we have not had enough time to review some 
of the other bills before us today because they were introduced 
just this week, and we haven't had the opportunity for 
background hearings for understanding them. I am also troubled 
by the fact that the majority has not seemed to take an 
interest in our offer to make good the Workforce Bill 
bipartisan. As we have said, we should return to the original 
version that was agreed upon. I believe that we can improve the 
bill and it can pass again with unanimous consent if it were 
simply ``all of the above'' and inclusive of every 
underrepresented group, including women and veterans.
    Mr. Chairman, I know that we can return to regular order so 
that Members have the opportunity to make informed judgments 
about the need for legislation and the effect of these bills.
    I want to thank our two witnesses, Assistant Secretary 
Simmons and Dr. Campos, for appearing before us today so that 
we can learn about DOE's efforts on efficiency and workforce 
development, and determine whether additional legislative 
authorities are necessary. Given the price tag of these new 
bills and the tens of billions of dollars, we owe it to the 
taxpayers and the consumers to take our time to determine 
whether the spending is justified.
    I promise to keep an open mind. And as I have said before, 
we are ready to get to work if all of us are serious about the 
effort.
    I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared Statement of Hon. Fred Upton

    Thank you, Mr. Chairman for holding this hearing on eight 
Department of Energy workforce and efficiency bills. I am 
pleased to see that our bill from last Congress was included, 
H.R. 2144, the Enhancing State Energy Security Planning and 
Emergency Preparedness Act. You and I worked together on that 
bill, and it passed the House by voice vote. I look forward to 
seeing this bill get across the finish line this Congress.
    As we know from our oversight work, our energy 
infrastructure is comprised of a vast network of energy and 
electricity delivery systems. These intricate and highly 
interdependent systems enable almost every aspect of our daily 
lives. The Nation's economy, security, and the health and 
safety of its citizens depend upon the reliable and 
uninterrupted delivery of fuels and electricity, which is why 
it is so important to stay on top of maintenance and 
modernization. At the same time, we must also remain vigilant 
when it comes to energy security planning and emergency 
preparedness.
    Since the inception of the Department of Energy's State 
Energy Program in 1975, the manner in which energy and power is 
generated,transmitted, and delivered continues to rapidly 
change and evolve. Recent hurricanes, fires, and cyber-related 
events have raised concerns about the security and resiliency 
of the Nation's energy and electricity systems, and States have 
emphasized the need to prioritize energy security, emergency 
planning, and energy infrastructure protection.
    H.R. 2144 will modernize and reauthorize DOE's State Energy 
Program through 2025. It's a good bill that will help States 
with tools to plan and prepare for energy security emergencies. 
I encourage my colleagues to support.
    We also have a couple other bipartisan bills from last 
Congress, H.R. 2019, the Smart Energy and Water Efficiency Act; 
and, H.R. 2044, the Smart Building Acceleration Act. These 
bills will help save energy in public buildings and encourage 
the adoption of innovative technologies to conserve water in 
communities across the country. These are also good, bipartisan 
bills, and I look forward to receiving input from DOE to 
further perfect them.
    Unfortunately, we haven't had enough time to review some of 
the other bills before us today, because they were just 
introduced on Monday and we haven't had the opportunity for 
background hearings.
    I am also troubled by the fact that the Majority has not 
seemed to take interest in our offer to make the workforce bill 
bipartisan. As we have said, we should return to the original 
version that was agreed upon. I believe we could improve the 
bill and it could pass again with unanimous consent if it were 
simply ``all of the above'' and inclusive of all 
underrepresented groups, including women and veterans.
    Mr. Chairman, I hope we can return to regular order so that 
Members have the opportunity to make informed judgements about 
the need for legislation and the effect of these bills.
    I would like to thank our DOE witnesses, Assistant 
Secretary Daniel Simmons and Mr. James Campos, for appearing 
before us today so that we can learn about DOE's efforts on 
efficiency and workforce development and determine whether 
additional legislative authorities are necessary. Given the 
price tag of these new bills is in the tens of billions of 
dollars, we owe it to our taxpayers and to consumers to take 
our time and determine whether the spending is justified.
    I'll keep an open mind, and as I've said before, we are 
ready to get to work if the Democrats are serious about this 
effort. It is disappointing that we're starting this way with 
some of these bills, but I hope things will improve if we can 
get a commitment to return to regular order.
    Thank you, Mr. Chairman. I yield back.

    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Mr. Pallone, the chairman of the 
full committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today we are here to discuss legislation that invests in 
making our Nation's infrastructure more energy efficient. This 
important investment will create good-paying jobs, save 
consumers money, and help us combat climate change by reducing 
carbon pollution.
    Countries across the globe are investing in energy 
efficiency, and it is making a difference. According to the 
International Energy Agency, the world would have used 12 
percent more energy in 2016 had it not been for efficiency 
gains achieved since 2000. And that is comparable to adding 
another European Union to the global energy market.
    A critical piece of infrastructure includes making homes, 
buildings, cities, and manufacturing facilities more energy 
efficient. Efficiency work supports thousands of good-paying 
jobs at small businesses in every State. And weatherizing homes 
or retrofitting public buildings saves money and supports our 
efforts to address climate change.
    The eight bills before us will increase energy efficiency, 
develop a modern energy workforce, and strengthen energy 
security.
    H.R. 2043, the Home Owner Managing Energy Savings, or HOMES 
Act, introduced by Representatives Welch and McKinley, provides 
cash rebates of up to $5,000 to homeowners for performing 
retrofits that achieve home energy savings.
    H.R. 2041, introduced by Representative Tonko, Chairman 
Rush, and Representative Kaptur, would also help homeowners 
save money and create jobs. This bill increased funding for the 
Department of Energy's Weatherization Assistance Program to 
$350 million annually and modernizes the program.
    This technology can also be a driver for increased energy 
efficiency. And Representatives McNerney, Welch, and Kinzinger 
have introduced bills that analyze and support new technologies 
in smart buildings and water systems.
    The subcommittee will also review two bills that 
reauthorize grant programs to assist States and local 
governments in making public infrastructure more energy 
efficient. Representatives Stanton and Veasey introduced H.R. 
2088, which increases funding for the Energy Efficiency and 
Conservation Block Grant Program. This program provides grants 
to States and local communities to assist their efforts to 
reduce fossil fuel emissions and conserve energy. And this is 
something that has been a priority for mayors and local elected 
officials around the country, in large part because it funds 
infrastructure that will save those communities money.
    Similarly, H.R. 2119, introduced by Representative Kelly, 
increases funding for DOE grants to improve the efficiency of 
public buildings. Both programs provide critical support to 
local communities that often lack the resources to take on 
large scale public efficiency-related projects.
    We should also look at investing in the skilled workers who 
manufacture equipment and build and operate plants. Chairman 
Rush's Blue Collar to Green Collar Jobs Development Act 
established a comprehensive, nationwide program at DOE to 
improve education and training for jobs in energy-related 
industries.
    And, finally, we have H.R. 2114, the Enhancing State Energy 
Security Planning and Emergency Preparedness Act, introduced by 
Chairman Rush and Ranking Member Upton. Obviously, this bill is 
bipartisan and reauthorizes the State Energy Program at $90 
million per year and allows States to use the funds to 
implement a State Energy Security Plan. The bill passed the 
House by a voice vote during the last Congress, and I am 
hopeful that we can get it to the President's desk before the 
end of this Congress.
    So, again, this is a legislative hearing on these bills. We 
would like to move these bills. I want to commend the sponsors 
for their work on these important issues, and thank Mr. Simmons 
for appearing before the committee for the second time this 
year.
    And I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Today, we're here to discuss legislation that invests in 
making our Nation's infrastructure more energy efficient. This 
important investment will create good paying jobs, save 
consumers money and help us combat climate change by reducing 
carbon pollution.
    Countries across the globe are investing in energy 
efficiency, and it's making a difference. According to the 
International Energy Agency, the world would have used 12 
percent more energy in 2016 had it not been for efficiency 
gains achieved since 2000. That's comparable to adding another 
European Union to the global energy market.
    A critical piece of infrastructure includes making homes, 
buildings, cities and manufacturing facilities more energy 
efficient. Efficiency work supports thousands of good-paying 
jobs at small businesses in every State. And, weatherizing 
homes or retrofitting public buildings saves money and supports 
our efforts to address climate change.
    The eight bills before us will increase energy efficiency, 
develop a modern energy workforce and strengthen energy 
security.
    H.R. 2043, the Home Owner Managing Energy Savings (HOMES) 
Act of 2019, introduced by Reps. Welch and McKinley, provides 
cash rebates of up to $5,000 to homeowners for performing 
retrofits that achieve home energy savings.
    H.R. 2041, introduced by Rep. Tonko, Chairman Rush and Rep. 
Kaptur, would also help homeowners save money and create jobs. 
This bill increases funding for the Department of Energy's 
(DOE) Weatherization Assistance Program to $350 million 
annually and modernizes the program.
    Technology can also be a driver for increased energy 
efficiency, and Reps. McNerney, Welch and Kinzinger have 
introduced bills that analyze and support new technologies in 
smart buildings and water systems.
    The subcommittee will also review two bills that 
reauthorize grant programs to assist States and local 
governments in making public infrastructure more energy 
efficient. Reps. Stanton and Veasey introduced H.R. 2088, which 
increases funding for the Energy Efficiency and Conservation 
Block Grant Program. This program provides grants to States and 
local communities to assist their efforts to reduce fossil fuel 
emissions and conserve energy. This is something that has been 
a priority for mayors and local elected officials around the 
country, in large part because it funds infrastructure that 
will save communities money.
    Similarly, H.R. 2119, introduced by Rep. Kelly, increases 
funding for DOE grants to improve the efficiency of public 
buildings.
    Both programs provide critical support to local communities 
that often lack the resources to take on large scale public 
efficiency-related projects.
    We should also look at investing in the skilled workers who 
manufacture equipment and build and operate plants. Chairman 
Rush's Blue Collar to Green Collar Jobs Development Act 
establishes a comprehensive, nationwide program at DOE to 
improve education and training for jobs in energy-related 
industries.
    Finally, we have H.R. 2114, the Enhancing State Energy 
Security Planning and Emergency Preparedness Act, introduced by 
Chairman Rush and Ranking Member Upton. This bill reauthorizes 
the State Energy Program at $90 million per year and allows 
States to use the funds to implement a State Energy Security 
Plan. The bill passed the House by voice vote during the last 
Congress and I'm hopeful we can get it to the President's desk 
before the end of this one.
    I commend the bill sponsors for their work on these 
important issues and thank Mr. Simmons for appearing before the 
committee for the second time this year. I yield back the 
balance of my time.

    Mr. Sarbanes. Will the gentleman yield the balance?
    Mr. Pallone. Oh, I'm sorry. I yield to the gentleman from 
Maryland.
    Mr. Sarbanes. Yes. I appreciate that. I just wanted to echo 
your comments and say that we have a lot of very strong 
proposals here in terms of energy efficiency.
    I want to thank Congressman Rush in particular for the Blue 
Collar to Green Collar Jobs Employment Act. In Baltimore, 
Baltimore City and a number of partners, including originally 
the Department of Energy here under the Obama administration, 
but also foundations, and businesses, and workforce development 
groups have put forth an initiative called Baltimore Shines, 
which is to install solar panels on the homes of low-income and 
moderate-income residents in Baltimore City so there is a 
positive impact on the bottom line in terms of their utility 
costs, reducing their utility costs. Also, obviously, helping 
reduce the carbon footprint when it comes to the environment 
and making sure we are doing the right thing.
    But, also, a pipeline, as was alluded to, generally a 
pipeline for the workforce to move to green-collar jobs, which 
can really establish somebody and put them on a path to 
sufficiency. So, I thank you for those bills. And thank you, 
Congressman Rush, for your proposal.
    I yield back to Congressman Pallone.
    Mr. Pallone. I thank the gentleman. I yield back, Mr. 
Chairman.
    Mr. Rush. The Chair also thanks the gentleman for his kind 
remarks.
    The Chair now recognizes Mr. Flores, who is speaking for 
the ranking member, Mr. Walden, who is not present. The Chair 
recognizes Mr. Flores to read Mr. Walden's statement for 5 
minutes.
    [Whereupon Mr. Flores read from Mr. Walden's statement.]

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Flores. Thank you, Mr. Chairman, for holding this 
hearing to continue our oversight of the Department of Energy's 
Energy Efficiency and Workforce Development Programs.
    I would also like to thank our DOE witnesses, Assistant 
Secretary Daniel Simmons and Mr. James Campos, for appearing 
before us today. Daniel actually testified at our last 
subcommittee hearing, so we welcome you back for another round 
of questioning. I hope you feel the same.
    Before I get into the substance of the eight bills before 
us today I need to make a point about the regular order and 
process. As yet another week goes by without a single 
substantive legislative accomplishments, the Democrats are 
still struggling with the basic principle of regular order. We 
are familiar with three of the bills before us today from last 
Congress, and they are bipartisan. And that is we are 
appreciative of that.
    The rest of these bills, unfortunately, have just been 
jammed through without regular order. In fact, some of them 
were just introduced on Monday so that they could be squeezed 
into this hearing. There were no background hearings held to 
establish the nature of the legislation. There was no technical 
assistance sought from the Department of Energy. There were no 
Republicans included in the drafting process at all. This is 
not regular order, and it is certainly not a process that the 
Democrats should be proud of.
    The estimated price tag for all eight bills is a staggering 
$26 billion. This includes more than a half-billion dollars for 
a green-collar jobs program; $15 million for a new energy and 
water efficiency pilot program; another half-billion dollars 
for energy-efficient public buildings; $1.8 billion for 
weatherization assistance; $1.3 billion for a new home energy 
savings retrofit rebate program; and last but not least, an 
astounding $21 billion for energy efficiency block grants.
    Mr. Chairman, we owe it to our constituents and to 
consumers across the country to give this a much more serious 
effort. Rather than rushing to authorize tens of billions of 
dollars of additional spending, we should have real oversight 
hearings to better understand the needs and to discover that 
there are gaps that require Congress to provide DOE with 
additional statutory authorities. With all of these new grant 
programs for efficiency, we have no idea if they are actually 
necessary, or if they are duplicative, or if they are in 
conflict with other existing programs.
    Since several of these bills do provide grants to State and 
local governments, members of this subcommittee should hear 
from those State and local governments directly to identify 
gaps and see how the Federal Government can better support 
their efforts on energy efficiency and workforce development.
    Also, since several of these bills revive expired programs, 
we should get our lessons learned from past experiences before 
determining whether programs should be reauthorized and, if so, 
how much we should spend. Unfortunately, at the rate we are 
going we are not going to get the opportunity to explore these 
issues more deeply. As a result, we are going to have partisan 
bills that pick winners and losers and reward special interests 
over consumers and over taxpayers.
    Worse yet, we are going to repeat the mistakes of the past 
by doubling down on failed efforts from President Obama's Green 
Jobs Program. Republicans are focused on real solutions to 
encourage energy efficiency and workforce development. We 
should not be wasting our time reviving old, expired efficiency 
programs, some of which have not received funding in years.
    We are ready to work when Democrats are willing to reach 
across the aisle and to make a serious effort. I am 
disappointed that we are starting off this way, but I continue 
to remain hopeful that we can get back on track.
    With that, thank you for holding this hearing, and I yield 
back the balance of my time.

                 Prepared Statement of Hon. Greg Walden

    Thank you, Mr. Chairman for holding this hearing to 
continue our oversight of the Department of Energy's energy 
efficiency and workforce development programs.
    I would also like to thank our DOE witnesses, Assistant 
Secretary Daniel Simmons and Mr. James Campos, for appearing 
before us today. Daniel actually testified at our last 
subcommittee hearing, so we welcome him back for another round 
of questioning.
    Before I get into the substance of the eight bills before 
us today, I need to make a point about regular order and 
process. As yet another week goes by without a single 
substantive legislative accomplishment, the Democrats are still 
struggling with the basic principle of regular order.
    We are familiar with three of the bills before us today 
from last Congress, and they are bipartisan. The rest of these 
bills have been jammed through without regular order. In fact, 
some of them were just introduced on Monday so they could be 
squeezed into this hearing.
    There was no technical assistance sought from the 
Department of Energy. There were no Republicans included in the 
drafting process at all. This is not regular order, and it is 
certainly not a process that Democrats should be proud of.
    The estimated price tag for all eight bills is a staggering 
$26 billion. This includes more than $500 million for a green-
collar jobs training program; $15 million for a new energy and 
water efficiency pilot program; $500 million for energy 
efficient public buildings; $1.75 billion for the 
weatherization assistance program; $1.25 billion for a new home 
energy savings retrofit rebate program; and, last but not 
least, an astounding $21 billion for energy efficiency block 
grants.
    Mr. Chairman, we owe it to our constituents and to 
consumers across the country to give this a more serious 
effort. Rather than rushing to authorize tens of billions of 
dollars in additional spending, we should have real oversight 
hearings to better understand the needs, and to discover if 
there are gaps that require Congress to provide DOE with 
additional statutory authorities. With all of these new grant 
programs for efficiency, we have no idea if they are actually 
necessary or even if they are duplicative of other existing 
programs.
    Since several of these bills provide grants to State and 
local governments, members of the subcommittee should hear from 
them directly to identify gaps and see how the Federal 
Government can better support their efforts on energy 
efficiency and workforce development. And since several of 
these bills revive expired programs, we should gather lessons 
learned from past experiences, before determining whether the 
programs should be reauthorized, and if so, how much we should 
spend.
    Unfortunately, at the rate we are going, we are not going 
to get the opportunity to explore these issues more deeply. As 
a result, we are going to have partisan bills that pick winners 
and losers and reward special interests over consumers. Worse 
yet, we are going to repeat the mistakes of the past by 
doubling down on failed efforts from President Obama's Green 
Jobs program.
    Republicans are focused on solutions to encourage energy 
efficiency and workforce development. We should not be wasting 
our time reviving old, expired efficiency programs--some of 
which have not received funding in years.
    We are ready to get to work when the Democrats are willing 
to reach across the aisle and make a serious effort. I am 
disappointed that we're starting off this way, but I continue 
to remain hopeful that we can get back on track.
    With that, thank you for holding this hearing, and I yield 
back the balance of my time.

    Mr. Rush. The gentleman yields back.
    I want to respond, but the chairman of the full committee 
has prevailed upon me to just ignore the comments and continue 
with the hearing. So wisdom has prevailed, and I am not going 
to respond to the other side's comments.
    So, now we will recognize our witnesses. Our first witness 
today before us is the Honorable Daniel Simmons. He is the 
Assistant Secretary of the Office of Energy Efficiency and 
Renewable Energy at the Department of Energy. And the Honorable 
Mr. James Campos, the Director of the Office of Economic Impact 
and Diversity at the Department of Energy.
    And we want to welcome Assistant Secretary Simmons back to 
the committee, and thank both he and Director Campos for 
joining us today. And we look forward to your testimony.
    Now, the chairman will now recognize each witness for 5 
minutes to provide their opening statement. Before we begin, I 
would like to explain the lighting system to our witnesses.
    In front of you, if you are not aware of this, there is a 
series of lights. The light will initially be green at the 
start of your opening statement. The light will turn yellow 
when you have 1 minute remaining on your opening statement. 
Please at that time begin to wrap up your testimony. The light 
will turn red when your time expires.
    Secretary Simmons, right now you are recognized for 5 
minutes.

STATEMENTS OF DANIEL R. SIMMONS, ASSISTANT SECRETARY, OFFICE OF 
 ENERGY EFFICIENCY AND RENEWABLE ENERGY, DEPARTMENT OF ENERGY; 
 AND JAMES E. CAMPOS, DIRECTOR, OFFICE OF ECONOMIC IMPACT AND 
                DIVERSITY, DEPARTMENT OF ENERGY

                 STATEMENT OF DANIEL R. SIMMONS

    Mr. Simmons. Thank you, Chairman Rush, Chairman Pallone, 
Ranking Member Upton, and members of the subcommittee. Thank 
you for the opportunity to testify on behalf of the Department 
of Energy regarding a number of bills addressing energy 
efficiency issues that are being considered by this committee.
    One of my top priorities in the Office of Energy Efficiency 
and Renewable Energy is energy affordability, and cost-
effective energy efficiency is an important aspect of overall 
energy affordability. The United States' approximately 125 
million homes and commercial buildings are the single largest 
energy consuming sector in the United States, consuming 74 
percent of the Nation's energy use, and over 80 percent at 
periods of peak demand. There are obviously opportunities for 
cost-effective energy efficiency improvements in this sector.
    Today I would like to share some of the relevant work my 
office has done and is doing on the areas that these bills 
address.
    The HOMES Act would create a program through the Department 
of Energy to provide rebates to homeowners for achieving home 
energy savings. Residential buildings use an estimated 21 
percent of all energy used in the United States. And 55 percent 
of the Nation's 118 million homes were built before 1980, 
meaning that there is a lot of opportunity for energy-efficient 
retrofits.
    In EERE we are initiating research to develop better 
solutions for achieving cost-effective energy efficiency 
savings through advancements in building construction 
technologies, less intrusive installation methods, and more 
effective integrated envelope and heating/cooling technologies. 
To me this is somewhat personal in that, as someone who lives 
in a home built in 1948, it is something I think about a lot, 
especially when staff comes and talks about building 
technologies.
    So there are definitely opportunities in terms of energy-
efficient retrofits.
    We also implement a variety of programs that promote 
residential energy efficiency, including the Home Performance 
with Energy Star Program, which works with EPA and local 
sponsors. So far, the Home Performance with Energy Star Program 
partners have reported completing improvements to nearly 
700,000 homes.
    Additionally, EERE's Weatherization Assistance Program 
developed and maintains foundational workforce training and 
certification programs to ensure the work is performed in 
residential weatherization retrofits for low-income homes.
    The Smart Building Acceleration Act would take a number of 
actions related to evaluating and advancing the current state 
of ``smart buildings'' in the private and Federal sectors. 
Because buildings consume 74 percent of electricity generation, 
the Building Technology Office is working with National Labs, 
private sector partners, and others to examine grid flexibility 
to greater and better building control and communication 
technology.
    We believe there is an opportunity through smart building 
technology to improve energy integration and storage options 
for both building owners and grid operators. We also recognize 
the importance of cyber security being built in from the very 
beginning of these projects.
    Also, I should note that EERE's Federal Energy Management 
Program works closely with other Federal agencies to improve 
the energy efficiency and smartness of Federal buildings.
    The Weatherization Enhancement and Local Energy Efficiency 
Investment and Accountability Act would reauthorize the 
Weatherization Assistance Program through 2024. The President's 
budget requests no funding for the weatherization, for WAP and 
the State Energy Program. DOE understands the congressional 
interest in these programs and will continue to manage them 
consistent with statute.
    The Energy Efficiency and Conservation Block Grant Bill 
expands the purpose of the Energy Efficiency and Conservation 
Block Grant Program to include diversifying energy supplies, 
including facilitating and promoting the use of alternative 
fuels, and reauthorizes the program at $3.5 billion annually 
from 2020 through 2025.
    The Improving Energy Efficiency in Public Buildings Bill 
would authorize grants for improving energy efficiency in 
public buildings at $100 million annually from 2021 to 2025.
    The Smart Energy and Water Efficiency Act would award 
grants to eligible entities to demonstrate advanced and 
innovative technology-based solutions to improve the energy 
efficiency of water, wastewater, and water reuse systems.
    DOE is implementing a number of initiatives to promote 
affordable, efficient, and secure water supplies. One effort is 
the Water Security Grand Challenge focusing on improving 
desalination; produced water from oil and gas as well as some 
nuclear mining; resource recovery from wastewater; the use of 
cooling-reducing the use of cooling water at thermoelectric 
plants; and improving small modular energy systems, energy-
water systems for urban, rural, Tribal, national security, and 
disaster response settings.
    The Advanced Manufacturing Office works with water 
utilities and other industrial partners to improve their energy 
and water efficiency through efforts such as the voluntary 
recognition program Better Plants--or Better Buildings, Better 
Plants.
    Also, EERE's Weatherization Intergovernmental Program 
Office provides technical assistance that focuses specifically 
on the efficiency of wastewater treatment facilities, including 
WIP's Sustainable Wastewater Infrastructure of the Future 
Accelerator.
    Mr. Rush. Mr. Secretary, will you bring your remarks to the 
end.
    Mr. Simmons. This is it. This is the last line.
    Thank you for the opportunity to appear before the 
subcommittee and discuss these important energy efficiency 
issues. I look forward to your questions.
    [The prepared statement of Mr. Simmons follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Good timing.
    The Chair now recognizes Mr. Campos for 5 minutes for his 
opening, of an opening statement.

                  STATEMENT OF JAMES E. CAMPOS

    Mr. Campos. Thank you. Chairman Rush, Ranking Member Upton, 
and members of the subcommittee, it is a privilege and honor to 
serve at the Department of Energy, an agency tasked with, among 
other important responsibilities, managing the Department's 17 
National Laboratories, supporting early-stage energy R&D across 
a wide range of science and engineering disciplines, managing 
the Nation's nuclear weapons, and working effectively with 
States on our Nation's energy challenges.
    Thank you for the opportunity to testify today on behalf of 
the Department regarding legislation pertinent to the DOE.
    ED's mission is broad and diverse, with a number of 
programs and initiatives that focus on meeting its statutory 
obligations and enhancing the value of DOE's mission. ED's 
programs and initiatives are focused on businesses and 
education to establish critical linkages among minority-serving 
institutions, minority businesses, and Federal agencies to 
address economic development in underserved communities, and to 
support energy workforce development.
    ED is committed to increasing efforts for supporting 
greater inclusion of underserved minority populations--African 
American, Hispanic, Native American, Asian American and Pacific 
Islander, Puerto Rican, and Alaska Native--including women, 
veterans, and formerly incarcerated persons, into science, 
technology, engineering, mathematic fields, and energy-related 
industries.
    As Deputy Secretary Brouillette assured the chairman during 
his hearing before this committee in January of 2018, ED has 
recently reinvigorated the Minorities in Energy Initiative, now 
being called Equity in Energy. The program is twofold, with 
external and internal engagements.
    For external engagement, ED is conducting listening 
sessions across the country with underrepresented groups to 
share insights and ideas to increase minority representation in 
the energy sector. And share ideas to increase minority 
representation, sorry, in the energy sector. For internal 
engagement, ED is working with all of the Department's program 
offices and the National Laboratories to bring awareness to 
these issues and address potential solutions. The Equity in 
Energy initiative focuses on STEM aptitude, supplier diversity, 
technical assistance, and workforce development.
    ED also administers the Minority Educational Institution 
Student Partnership Program, MEISPP, which provides students 
with summer internships at the DC headquarters and the 17 
National Labs. Since 2005, over 650 interns from minority-
serving educational institutions have participated in the 
program.
    DOE has provided over $700 million to support Historically 
Black Colleges and Universities, HBCUs, and other minority-
serving institutions through research and development programs. 
In fact, my office was able to partner with and provide 
financial assistance to several HBCUs and MSIs this year to 
promote STEM and energy-related fields. To further these 
efforts, ED is working to release a Funding Opportunity 
Announcement this fiscal year.
    Additionally, I am the Department's White House Initiative 
designee to Promote Excellence and Innovation at HBCUs. In this 
role, I lead the Economic Development and Competitiveness 
cluster, and collaborate with the Departments of Treasury, 
Housing and Urban Development, Education, Commerce, 
Agriculture, as well as the Small Business Administration. The 
cluster aims to engage the Nation's HBCUs to develop workforce 
and community investments partnerships.
    With respect to this proposed legislation, please note that 
the Department has provided the committee with technical 
assistance in reviewing the bill, and will continue to work 
with the committee as the legislation being discussed today is 
advanced.
    Thank you again for this opportunity to be here today. It 
is an honor and privilege to served in this capacity. The 
Department appreciates the ongoing bipartisan efforts, 
bipartisan efforts to address our Nation's energy challenges. 
And I look forward to addressing any questions.
    [The prepared statement of Mr. Campos follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I want to thank the gentleman. Want to thank all 
of our witnesses.
    Members, we have a vote on the floor. It has been called. 
And it is my intention to recess the subcommittee until 
immediately after the vote.
    So, at this point in time I am going to ask our witnesses 
if they would remain with us. We should be about 25 minutes to 
an hour. So, we will reconvene immediately after the last vote.
    Thank you. And the subcommittee stands recessed.
    [Recess.]
    Mr. Rush. We have concluded with the opening statements, 
and now we will move to Members' questioning. Each Member will 
have 5 minutes to ask questions of the witnesses. And I will 
start by recognizing myself for 5 minutes.
    Director Campos, as you know, the issue of increasing 
opportunities for minorities and other underserved groups is 
very important to me. It is an issue that I have devoted my 
entire career in public service to, and it is one that I 
continue to hold on as a top priority as chairman of this 
subcommittee. That's the reason why I worked so closely with 
Secretary Moniz in the previous administration on increasing 
the Minorities in Energy Initiative and why I reintroduced my 
workforce bill.
    And I understand that every President has the prerogative 
to focus on their own priorities. And we all certainly 
understand that the current President feels a certain way about 
minorities and about diversity. It is his prerogative to feel 
no matter which he feels. However, the point of both the 
Minorities in Energy Initiative as well as my workforce bill is 
that it really shouldn't matter who is in the White House, that 
the agency, DOE, has the affirmative responsibility to work on 
increasing opportunities for all.
    DOE is one of the largest agencies in the Federal 
Government. And it receives more taxpayer funding, $30 billion 
of taxpayers' money, than any department outside of the 
Pentagon. It should be the agency that is the forefront of all 
the agencies to create opportunity and to use its resources to 
benefit all Americans, not simply the ones who are already a 
part of the GOB, the Good Ol' Boys network, but all Americans. 
DOE controls billions of taxpayer dollars in contracts, loan 
guarantees, and funding to schools.
    Yet, in each and every meeting I have held with agency 
officials, whether discussing overall contracting dollars or 
funding through the minority service institutions, or minority 
contracting as part of the Federal Energy Management Program, 
FEMP, or lending opportunities with the 17 National 
Laboratories of our Nation, it is really disheartening to me to 
hear the same exact excuse: ``Chairman Rush, Ranking Member 
Rush, the numbers''--I am quoting them now--``the numbers are 
not as good as they should be. We need to do more.'' End of 
quote.
    Director Campos, while I appreciate your traveling around 
on, quote, ``listening tours,'' end of quote, my objective is 
to get beyond the talking and the planning stages and to offer 
concrete and practical policy and procedures that will help 
benefit all segments of our population. Previously under 
Department of Energy regulations, the d-e-a-r, DEAR, there were 
diversity calls that govern all contracting, including 
management and operating, or M&O, contracting. This would 
require a diversity plan that includes educational outreach, 
community outreach, and economic development opportunity 
through technology transfer with the Labs. The purpose of the 
diversity plan was to encourage and foster relationships with 
minority-serving institutions, and to develop continued 
partnerships with professional and scientific organizations to 
promote careers in STEM education.
    The objective of these plans was to create minority 
participation in contracting and subcontracting opportunities, 
research and development partnerships, and regular protege 
responsive relationships, all of which are essential to the 
objectives of H.R. 1315.
    Director Campos, I am not going to ask you if your office 
is working on any type of plan like this because we both 
already know the answer. But I will be submitting some 
questions for the record to your Department. And I will also 
will be bringing up this issue when Secretary Perry comes 
before this subcommittee next month to discuss DOE's budget. 
Let's get to work, Director Campos, on these issues so that we 
can start enacting serious proposals such as my workforce bill 
in order to address some of the disparities in how the agency 
does that business.
    With that, I yield back. And now I recognize my good 
friend, the ranking member of the subcommittee, Mr. Upton, for 
5 minutes for the purpose of asking questions of our witnesses.
    Mr. Upton. Thank you, my friend. And, Chairman, as I said 
in my opening statement, we do have a number of concerns, 
particularly as we look at the total price tag of nearly $26 
billion. That ought to get everybody's attention. And as I 
said, a couple of the bills were introduced just in the last 
couple days, as recently as Monday.
    I have just a couple of questions. And would just note that 
we just finished votes on the House floor. We have another 
subcommittee that is working. We have Members on both. And we, 
because of the Democratic retreat, we have no more votes the 
balance of the week, so folks are off to the races in a variety 
of ways.
    Has the Department been asked for their input, and have you 
supplied any technical assistance, TA, for any of these bills?
    Mr. Simmons. We have been asked for, for technical 
assistance on Representative Tonko's bill. I don't know if we 
have the--we have not given that assistance back. I believe 
there was a new version of that bill earlier this week.
    Mr. Upton. In the case of the workforce bill, which I 
understand you also submitted technical assistance, has there 
been any response back to concerns that you might have raised 
to comments?
    Mr. Simmons. I am not sure.
    Mr. Upton. That you are aware of?
    Mr. Simmons. Not that I am aware of. But I am not sure 
where we are in that process.
    Mr. Upton. Will you commit to working with us to provide a 
full audit of the workforce activities before the, hopefully, 
before the bill moves forward?
    Mr. Simmons. Sure thing.
    Mr. Upton. And in the case of the reauthorization of 
expired programs, can you commit to providing any and all 
reports and materials related to those programs before these 
bills hopefully move forward as well?
    Mr. Simmons. Yes.
    Mr. Upton. I would also note that I understand DOE's 
position on the State Energy Program. The administration budget 
request I think was zero for the funds or for the program. 
Despite the expired program, I know that we in the Congress, 
and the President signed $55 million for fiscal year 2019 for 
the State Energy Programs, in large part because the States do 
ask for it.
    Do you have any sense in terms of where, can you help us? 
If Congress provides the money again are you going to be able 
to help us?
    Mr. Simmons. Without a doubt. We will execute on those 
monies as quickly as we can.
    Mr. Upton. And I guess the last question that I have is DOE 
does have an important role to provide technical systems in 
coordination to support the States in their efforts to plan and 
respond to emergencies, especially if there are impacts to 
energy supplies. We have this terrible storm hitting the 
Midwest right now and coming this way. Hurricane season, you 
know, never goes away. What can we do to strengthen DOE's 
ability to protect the Nation's energy supplies during these 
emergencies?
    This morning on some of the national news they talked about 
perhaps widespread power outages that are going to impact the 
Plains and some of the Midwest with the storm that is coming 
through. What more can we do as we try to work in a bipartisan 
basis to help strengthen the States' roles to prepare for these 
emergencies?
    Mr. Simmons. I don't have a, I don't have some great 
answers for that. However, the two offices that are really 
focused on those activities is the Office of Electricity, as 
well as the Office of Cyber Security, Energy Security, and 
Emergency Response.
    Assistant Secretary Walker and Evans are very much focused 
on those activities and making sure that the grid is more, can 
become more resilient. And especially focusing on kind of some 
of the knock-on effects once there is one problem, 
understanding the entire system so that we can have an energy 
system that is, that is more resilient and that is hardened 
from what it is today.
    So, we are, especially in QFRs, but I know that those 
offices would be happy to talk with the committee at any time 
to provide comments.
    Mr. Upton. Maybe one last question. As you look at the 50 
States and the territories, is there any State that really 
stands above others, and is there any State or territory that 
really needs some help?
    Mr. Simmons. I don't have a good comment on that. But I 
will take that back and find out and find some good examples.
    Mr. Upton. I would just note that we have Members from, you 
know, a lot of States here on this committee I know that we 
would like to help, particularly as it impacts those 
constituents wherever they may be. And I would again commend 
Chairman Rush and others, a couple years ago a number of us 
went down to Puerto Rico and the Virgin Islands to see what 
happened because of the terrible hurricane there.
    So, with that, I yield back. Thank you.
    Mr. Rush. I thank the gentleman.
    Now the Chair recognizes Mr. O'Halleran from Arizona for 5 
minutes.
    Mr. O'Halleran. Thank you, Mr. Chairman and Ranking Member 
Upton, for convening today's important legislative hearing on 
energy efficiency legislation. It could not be more timely.
    Deploying energy efficiency technologies and supporting 
such programs is critical to conserving our precious energy 
resources, and essential to bringing real cost savings to 
Arizonans and Americans throughout my district.
    As Arizona continues to find ways to integrate wind, hydro, 
and solar energy into our grid, I look forward to introducing 
legislation in this Congress to help our electrical grid make 
more resilient and efficient. For a recent southwest energy 
efficiency project study, Arizona has an energy savings of 21 
percent, and potential water savings of 4.1 billion gallons per 
year if certain efficiency programs are in place.
    Mr. Campos, in your testimony you highlighted the Equity in 
Energy initiative you run within the DOE to promote ethnic 
representations in the workforce. Could you provide a quick 
update on the listening sessions your office has had with 
Tribal communities?
    Mr. Campos. Sure, Congressman. Thank you.
    We have just started this initiative about 3 months ago. 
And one of our first active listening sessions we did a 
conference called RES which deals with most of the Native 
American Tribes across the Nation. It was a productive session. 
And we, we sat there and listening on areas of STEM aptitude 
and supplier diversity. And it went well.
    What we are doing now is compiling all the information, 
visiting other States, also doing events in Tulsa with Native 
Americans, and figuring out what is their exact part within 
this process and how we can progress forward in a both 
efficient and sustainable manner.
    Mr. O'Halleran. I would suggest that you come to Arizona. 
We have a large number of Tribes there. The Navajo Nation is 
the largest Tribal Nation in this country and within my 
district, and we do have some unique problems there. So, thank 
you for your answer.
    As we discussed back in February, I believe the Blue Collar 
and Green Jobs Act has the potential to help increase and 
diversify our energy workforce by providing funding for 
transmitting energy workers--transitioning energy workers to 
learn new energy-efficient trades. How would H.R. 1315 help 
Native Americans increase their representation in the energy 
efficiency workforce? Mr. Campos?
    Mr. Campos. Thank you, Congressman. Any assistance within 
the workforce development range helps out all the minority 
sectors across the country, be it Native Americans, African 
Americans, Hispanics, Asian Americans. So, the resources will 
be put forth equally and distributed in a manner in which is 
appropriate.
    Mr. O'Halleran. As you know, my district is home to coal 
generation power plants, including the Navajo Generation 
Station. Recognizing the many challenges coal-fired power 
plants are facing across the country and remaining open, I have 
a keen interest in the economic and societal impacts coal plant 
closures have on local communities.
    Mr. Campos, does DOE use Section 201 of H.R. 1315 in its 
ability to help displaced coal workers transition to new energy 
efficiency jobs with good living wages?
    Mr. Campos. Congressman, that is probably a question I will 
have to get back to you on to make sure that I am giving the 
right information.
    Mr. O'Halleran. Mr. Simmons, I would like to ask you about 
H.R. 2114, the Enhancing State Energy Security Planning and 
Energy Preparedness Act of 2019. In the last month there have 
been some documented fuel shortages in Central Arizona causing 
a 30 cent per gallon increase at the pump. Would this 
legislation help States develop State Energy Security Plans to 
prevent future lapses in fuel such as this?
    Mr. Simmons. Well, it would all come down to how good the 
State Energy Security Plan is. But if there are certain, 
hopefully, I think that that is--that that would be the goal, 
to be able to look at some of those challenges, especially 
foreseeable challenges that may happen in situations like that.
    Mr. O'Halleran. Mr. Chairman, I applaud the committee's 
work to discuss these issues in a bipartisan fashion on this 
and other issues as this Congress moves forward. And I yield 
back.
    Mr. Rush. I thank the gentleman for yielding back.
    The Chair now recognizes the gentleman from Ohio, Mr. Latta 
for 5 minutes.
    Mr. Latta. Thank you very much, Mr. Chairman. And thanks 
for today's hearing. And thanks for our witnesses for being 
with us today.
    Mr. Assistant Secretary, when reading your testimony you 
have an area you were talking about the cyber security that 
you're building, you want to see built into the design, 
production, and planning of new technologies. I know my friend 
from California Mr. McNerney and I have worked together on 
issues on cyber security and also on cyber sense and also the 
grid and the resiliency there.
    I'm just kind of interested. And when you are looking at 
what you want to do and on cyber resilience for all the 
manufacturing supply chains, could you go into that, what you 
are looking at?
    Mr. Simmons. Sure. Well, there is a, there is a number of 
things. First of all, we recently announced a cyber security in 
energy efficient manufacturing, which is a new $70 million 
effort to look at the future of manufacturing in the United 
States. And the future of manufacturing is likely to be much 
more automated than it is today. And as we are thinking about 
new automation, that new automation will increase energy 
efficiency hopefully.
    However, new automation creates new, new areas for attack. 
And so we want to make sure is that as we are from the very 
beginning looking at any opportunities to make, to make new 
automation more cyber secure, automation and controls so that 
they are more cyber secure from the very beginning.
    The Department of Defense also has a program in energy 
efficiency of manufacturing. They are focused on existing 
manufacturing. And as the cyber security and energy efficiency 
manufacturing program that we recently put out, we will work 
very closely with DoD to make sure that their comments and 
insights are considered as we move forward.
    Mr. Latta. Well, let me follow up then, because when you 
talk, like, in my district I have 60,000 manufacturing jobs. 
And when I have been out in my district extensively and, you 
know, with the automation that is going on, and also Mr. Welch 
and I who in this committee we did the internet of things 
working group two Congresses ago. And what we are seeing out 
there with all of the different technologies going on, how do 
you work with the companies out there or the manufacturers or 
the innovators to make sure that they are building this in? And 
also, at the same time, making sure that what they are putting 
into the product is secure to begin with, that they are not 
getting it from an insecure source that might have, you know, 
something in there that you could have a cyber attack?
    Mr. Simmons. So, the -- I am not, I don't have a great 
answer for you. The cyber security and energy efficiency in 
manufacturing is a new effort so I don't have any stories to 
tell about that. However, both the Office of Electricity when 
dealing with the bulk power grid is very much focused on the 
issue in terms of cyber security of the systems that control 
the bulk power grid. And, also, the Cyber Security, Energy 
Security, and Emergency Response Office in DOE is focused on 
those issues. And I can get you some comments about, about 
their work and how, how we are working to improve that cyber 
security.
    Also, a real asset for the country is the work that happens 
in the National Labs in terms of cyber security, at places such 
as Sandia National Lab, Idaho National Lab, Pacific Northwest 
National Lab, and looking at ways to improve cyber security. 
And they reach out to the private sector to make sure that they 
are, that they are coordinating and making sure that best 
practices are followed, as well as trying to understand where--
what cyber security issues we are seeing today so that we can 
make improvements.
    Mr. Latta. Thank you.
    Mr. Campos, in my remaining minute, how much does the 
Department of Energy spend on the annual basis, on an annual 
basis on the Workforce Development Initiatives?
    Mr. Campos. Thank you, Senator. Our budget within my 
office, in particular, economic development, diversity, we have 
a $10 million budget. And a fraction, fractions of it go across 
the spectrum. And what I mean by that is workforce development 
is woven in throughout my budget. About 6 point--5.8 million of 
it is for the actual labor, staffing. And then the rest is 
divided amongst all the initiatives. So, but workforce 
development is woven in within the whole, within the remaining 
budget.
    Mr. Simmons. And if I may, there are other, there are some 
things that my office does in terms of workforce development, 
both the Advanced Manufacturing Office, weatherization, the 
Weatherization Assistance Program works on workforce 
development through improving training. There is a number of 
opportunities, there is a number of things that we are 
currently doing. We would have to get you a holistic DOE number 
from across the entire enterprise.
    Mr. Latta. Thank you.
    Mr. Chairman, my time has expired, and I yield back.
    Mr. Rush. I thank the gentleman. The Chair now recognizes 
the gentleman from New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chairman. And thank you, 
gentlemen, for your testimony.
    Secretary Simmons, I agree that energy affordability should 
be a top priority. Low-income households pay on average 7.2 
percent of household income on utilities--I have seen even 
higher numbers than that--more than three times the amount that 
higher-income households pay. And according to the Energy 
Information Administration, 1 in 3 U.S. households faces 
challenges, or faced challenges in paying energy bills in 2015.
    Last week when we debated H.R. 9, a number of Members 
raised concerns about the costs of energy. And I believe they 
are sincere about wanting to keep expenses down. So, today I 
want to offer at least a partial solution on how to help lower 
utility bills for low-income families.
    Mr. Secretary, why do you think low-income households pay a 
disproportionate amount in their utility bills?
    Mr. Simmons. A disproportionate amount of their income in 
utility bills? Yes, they do.
    Mr. Tonko. But why do you think that is the case?
    Mr. Simmons. Because energy is a, energy is a necessity.
    Mr. Tonko. But in terms of relative scale to more affluent 
households, why would their wedge of the pie for energy be 
disproportionately larger?
    Mr. Simmons. Well, for one, they have less discretionary 
income. And so, when you are looking at the most important 
bills that you pay you have to pay to keep your house warm or 
cool, you have to pay to keep the lights on, you have to pay to 
get from point A to point B. Like, there is no way around those 
things, so.
    Mr. Tonko. I would suggest, also, that they live in 
inefficient homes with poor insulation, and perhaps old 
windows, et cetera. Unfortunately, many of these households 
cannot afford the up front costs of a retrofit, even when it is 
for cost-effective efficiency improvements.
    Luckily, DOE's Weatherization Assistance Program has more 
than a 40-year track record of making homes safer, healthier, 
and more energy efficient. The program has provided assistance 
to more than 7.4 million low-income households since that 
beginning date of 1976.
    Now, Mr. Secretary, do you think weatherization assistance 
provides a positive service to many of America's most 
vulnerable households, struggling families, seniors on fixed 
incomes, and the disabled for instance?
    Mr. Simmons. Yes.
    Mr. Tonko. Despite the program's success, I believe aspects 
of the program could be modernized and improved. A lot has 
changed in 40 years. There are new and emerging technologies 
and techniques to deliver even more effective services. So, Mr. 
Secretary, do you believe weatherization assistance should be 
able to include the latest, cost-effective technologies and 
services to achieve the program's goals?
    Mr. Simmons. Yes.
    Mr. Tonko. OK. And, Mr. Secretary, many of my colleagues 
have talked about needing to put innovation at the forefront of 
our energy policy. Today, weatherization funding is provided to 
States based on a formula. H.R. 2041 would create a small 
competitive grant program as a set-aside to that funding to 
support innovative weatherization practices.
    Mr. Secretary, do you support fostering more innovation in 
traditional weatherization services?
    Mr. Simmons. We, we very much foster, we very much support 
innovation because at the end of the day what matters is 
reducing people's energy bills and with the Weatherization 
Program.
    Mr. Tonko. Thank you very much.
    The most recent authorization of the program expired in 
2012. That authorization was for $1.4 billion, a level we have 
never reached in a sustained way. This bill includes a 
reauthorization at $350 million.
    Secretary Simmons, does the administration generally like 
to see programs reauthorized at levels better aligned with 
actual funding?
    Mr. Simmons. I'm sorry, I missed part of that question.
    Mr. Tonko. Sure. Does the administration generally like to 
see programs reauthorized at levels better aligned with actual 
funding?
    Mr. Simmons. I don't think the administration has taken a 
position on that question.
    Mr. Tonko. OK. Well, Mr. Chair, this committee's 
responsibility should be to reauthorize effective programs. I 
think it is clear that the Weatherization Assistance Program, 
with its record of supporting efficiency for low-income 
households deserves to be reauthorized and modernized.
    Mr. Chairman, thank you again for holding this hearing. I 
would also voice my support for EECBG reauthorization, which 
the Environment Subcommittee heard from a bipartisan group of 
mayors provides the flexible resources to advance local energy 
agendas.
    And with that, I will yield back.
    Mr. Rush. I thank the gentleman for yielding.
    The Chair now recognizes my friend from West Virginia, Mr. 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I guess what I am going to need from you all is some dates. 
And I don't think you are going to be able to answer initially 
where they are, so you will have to get back to me on it. But I 
would like to have with the Weatherization Program, and I thank 
the chairman for sponsoring this. I am one of the authors or 
sponsors of the Home Program, so it is something very sensitive 
and why we need to be moving on it.
    And I appreciate this, the questions that were asked about 
why they, the poor, are disproportionately affected. So I want 
to go to a line of re-questioning, especially as it relates to 
articles about Pennsylvania not being able--not spending the 
money that was authorized for them. And it was something like 
$5.4 million Pennsylvania had--we had provided Pennsylvania to 
help out the poor. And they didn't do it. The money had to be 
returned.
    So, my question is three parts. One is, do you have, can 
you get me or our office a list of all the States when they 
established a program to do weatherization? Is there support 
for that, to get that?
    Mr. Simmons. Absolutely.
    Mr. McKinley. Secondly, I would like to know when each of 
those 50 States, and perhaps territories that would come into 
play, when did they cut their first check?
    Mr. Simmons. OK.
    Mr. McKinley. To see that they are complying with what we 
are trying to reach out and help people. Maybe it is the 
bureaucracy or something that is holding it back and they are 
not helping out what we are trying to do to help out on that.
    Mr. Simmons. OK.
    Mr. McKinley. And thirdly, I would like to know the 
expiration date. How much money is being returned to the 
Federal Government that the States are not----
    Mr. Simmons. OK.
    Mr. McKinley [continuing]. Dispensing?
    And with it, so with that because I am hearing stories, 
because we talked a lot about this in West Virginia, I am 
trying to help out folks, that sometimes in other States they 
get the money, the work is done, but it may be 6 months to a 
year before the contractor is reimbursed. That is maybe the 
fourth aspect of it is, is there any justification way that 
people can, contractors should be put in that position? I 
don't, I wouldn't think that you would agree that they should 
be, it should be a year before they are paid, do you?
    Mr. Simmons. No. No.
    Mr. McKinley. So, it looked like you want to say a little 
bit more on that.
    Mr. Simmons. I was just going to say that, you know, we, 
the--we work very hard. The--we work very hard to make sure 
that the money they get appropriated under that program go out 
to the States in a timely fashion. And we would hope that that 
money gets then spent by the States in a timely fashion as 
well.
    Mr. McKinley. That you're aware. It is not so much wrong 
with Washington. We have enough problems here. But it looks 
like the States are not pushing it down to where it needs to 
be, particularly to help the poor in getting their homes, their 
efficiency.
    This, this article about Pennsylvania is very disturbing 
that was put out. And I, I hope that we can kind of put that to 
rest.
    So, if you would get back to us in a timely fashion with 
the three aspects: When were the States established; when did 
they cut the first check; and how much money did they return to 
the Federal Government that wasn't allocated to help out?
    Mr. Simmons. OK. We will do that.
    Mr. McKinley. And with that, Mr. Chairman, I yield back.
    Mr. Rush. The Chair thanks the gentleman for yielding back.
    The Chair now recognizes my friend from the great State of 
Illinois, Ms. Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair. And also was wondering, 
the report that Mr. McKinley asked for, can the committee have 
that report of the States?
    Mr. Rush. Mr. McKinley, will you share that, your report 
that you mentioned with the Chair, and even send it to the rest 
of the committee?
    Mr. McKinley. Yes.
    Mr. Rush. All right. So ordered. Right.
    Ms. Kelly. Thank you, Chairman Rush.
    Today's hearing is an important opportunity for the 
committee to review several pieces of legislation that increase 
energy efficiency and build a new energy workforce. Thanks for 
being here. I have introduced H.R. 2119, which amends the 
Energy Policy Act of 2005 to increase the authorization for a 
grant program that was set up to provide grants for States to 
improve the energy efficiency of public buildings and 
facilities.
    States and local communities often lack the financial 
resources to undertake large-scale efficiency retrofits for 
public buildings. This grant program makes it easier for States 
to make these investments, which in turn lowers the utility 
bills for the community operating the building.
    Assistant Secretary Simmons, in your testimony you discuss 
the fact that homes and commercial buildings are the largest 
energy-consuming sector in the U.S. What more can DOE's 
Building Technologies Office be doing to support State and 
local communities who may lack the resources to retrofit public 
buildings?
    Mr. Simmons. One of the first things that we can be doing 
is providing technical assistance. And some of that technical--
currently we provide technical assistance to the Federal 
Government through the Federal Energy Management Program. And 
there could be opportunities there to provide that type of 
assistance at the local level.
    And as well as some of the work that we are doing in the 
Building Technology Office is expanding the state of the art 
about retrofits, since there are a lot of public buildings, and 
wanting to make sure that there are more cost-effective, 
easier-to-do retrofit options to reduce the energy footprint of 
government at all levels, from the Federal down to the local 
level.
    Ms. Kelly. You also indicated that DOE shouldn't focus on 
grant programs like this that could be more appropriately left 
to the private sector. In what scenario would the private 
sector step in to fund efficiency upgrades that publicly 
operated buildings?
    Mr. Simmons. So, one way that that, that that occurs 
currently is through energy savings performance contracting 
where that happens at the Federal level but also at the State 
and local level. And I believe that is an area that some people 
in that community, some companies in that community see as a 
real opportunity for the future to work with schools, 
hospitals, and other public buildings to do one way of 
improving the energy efficiency of those buildings.
    Ms. Kelly. I won't ask you to do it now, but can you send 
me some examples of----
    Mr. Simmons. Sure. Sure.
    Ms. Kelly [continuing]. Where that has happened?
    A characteristic of public sector, local, State, and 
Federal is its limited resources compared to the private 
sector. This means a project upgrading public sector buildings 
may not be as profitable as a private construction project, and 
without incentives such as Federal grants driving investment in 
public sector buildings, our municipal buildings will only 
decline further in quality and efficiency, resulting in lower 
quality services and quality of life for our constituents. And 
I know in parts of my district and in some parts--I represent 
the south suburbs, south side of Chicago, south suburbs--and I 
know particularly in some of the south suburban towns they just 
simply cannot afford it. They just can't.
    As such, I am not as confident, I guess, as you are in the 
ability of private sector alone to drive the market for green 
construction. So, making the public buildings in our community 
more energy efficient has numerous benefits, as you know. It 
makes our buildings healthier and safer places to work by 
eliminating drafts and improving indoor air quality. Energy 
efficiency work creates good-paying jobs for local workers 
which I know is very important to our chairman, workforce 
development, and to me. It is a win/win for communities across 
the country. And the Federal Government should be providing 
more support to bolster these efforts.
    And with that, I yield back.
    Mr. Rush. I want to thank the gentlelady for yielding back.
    The Chair recognizes now Mr. Hudson from North Carolina for 
5 minutes.
    Mr. Hudson. Thank the chairman. And thank you to both the 
witnesses for being here. I know it is a long day for you, but 
it is very informative for us.
    Mr. Campos, thank you in particular for being here today. I 
want to focus on H.R. 1315, the Blue Collar to Green Collar 
Jobs Development Act, and the workforce development programs 
within the Department of Energy. Workforce development should 
be a truly non-partisan issue. As you may know, I have been a 
sponsor of similar legislation which passed with unanimous 
consent in prior Congresses. However, I have serious concerns 
with this new draft.
    You know, as a previous sponsor I was cut out of the 
drafting of this process. And because new language has been 
added, I feel we will unfairly pick winners and losers at the 
expense of consumers and workforce trainees.
    Mr. Campos, what is the Department of Energy's vision for 
energy workforce development? And do you agree that it would be 
shortsighted to limit workforce development and training 
opportunities to so-called green-collar jobs only?
    Mr. Campos. Thank you, Mr. Congressman.
    I think that the DOE at large has interwoven workforce 
development within its many different elements. And within my 
office it is an important aspect for the growth of our country 
and our national security. So, I am an advocate on doing 
whatever is necessary to promote that and to work within the 
confines of whatever ends up happening with this bill, and so 
forth.
    Mr. Simmons. And if I may, the Department as a whole is 
very supportive of workforce development. There are obviously 
some areas where there needs to--that it is more of a critical 
issue, for example around nuclear energy, for example, where 
you have the nuclear fleet is declining in size over time. And 
if you do not have people that can----
    Mr. Hudson. Well, I understand that. But, I mean, my 
question is if we are only looking at green-collar jobs are we 
leaving out a lot of other jobs in the future that we ought to 
be training for?
    Mr. Simmons. That is, that is certainly possible because of 
jobs in the, you know, the oil and gas sector in particular.
    Mr. Hudson. I appreciate that.
    Mr. Campos, I understand that the majority requested 
technical assistance from the Department, and that DOE 
expressed several concerns. However, it does not appear that 
any of the suggested improvements have been made.
    Mr. Chairman, I would like to ask unanimous consent that 
the Department of Energy's technical assistance document be 
included in the hearing record.
    Mr. Rush. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Hudson. Thank you, Mr. Chairman.
    Mr. Campos, I am concerned about the price tag also of H.R. 
1315. The bill amends the Department of Energy Organization Act 
to create a new program office with an authorized authorization 
of $500 million. It authorizes a new $100 million training 
program and it creates a new $350 million Energy Workforce 
Grant Program limited to energy efficiency and renewable 
energy. It sounds a lot like President Obama's Green Jobs 
Program.
    Does the Department of Energy need additional legislative 
authority or money for green-collar job grants?
    Mr. Campos. Mr. Congressman, I will have to work with my 
staff and get back to you on that.
    Mr. Simmons. One, we are, we are spending money in certain 
ways that on things that you could call green collar. For 
example, the Solar Office recently put out a $13 million 
funding opportunity announcement specifically on solar 
workforce. And there's a number of other opportunities and 
efforts going on besides that currently.
    Mr. Hudson. Great.
    For either witness, is there a risk that this new bill adds 
new layers of duplicative programs? If you are already able to 
focus on green-collar jobs, are we duplicating efforts here? I 
would ask either witness.
    Mr. Simmons. I would have to get back to you on that one. I 
am not familiar enough with, with all the language to make a 
good answer.
    Mr. Hudson. Mr. Campos?
    Mr. Campos. My office will also get back to you, sir.
    Mr. Hudson. I appreciate that.
    You know, Mr. Chairman, you and I are friends. I trust you, 
respect you, and we have worked together in the past. And I 
would love to find a way to work together going forward. I just 
have a lot of concerns about this draft and this legislation. 
And I appreciate you giving me a chance to talk about some of 
this.
    Mr. Rush. The Chair is eager to work with you. You have 
been my friend and we have worked together in the past. And I 
look forward to working together with you again in the future. 
And we will clear up any uncertainties and contingencies that 
exist regarding the bill. I think there is a misunderstanding 
of what the Chair means by blue to green collar. It is not 
excluding any particular characterization of jobs that are 
available in the energy sector.
    But, and so I look forward to working with you.
    The Chair now recognizes the gentleman from Massachusetts, 
Mr. Kennedy, for 5 minutes.
    Mr. Kennedy. Thank you, Mr. Chairman. I want to thank you, 
and the committee, and our witnesses from the Department of 
Energy. Thank you for your service, thank you for being here 
today.
    As you have seen so far, expanding energy efficiency is an 
incredibly important piece of the fight to lessen our 
dependence on fossil fuels and reduce emissions. I am proud to 
offer a bill along with my colleague Greg Stanton of Arizona, 
to help municipalities achieve their goals of lessening a 
carbon footprint.
    The Energy Efficiency and Conservation Block Grants Program 
was authorized as part of the Energy Independence and Security 
Act of 2007, and later funded as part of the stimulus in 2008.
    Oh, I am in the wrong seat. Forgive me.
    The energy efficiency and clean energy technologies are 
critically important to ensure a livable future. In addition to 
the environmental, civil, and economic benefits, they have the 
potential to be some of the fastest growing job opportunities, 
particularly in my district in Southeaster Massachusetts.
    Last month we heard from a panel of industry experts and 
business owners that they can't find enough workers with the 
right skill sets to fill the jobs that they need in a clean 
energy economy. I specifically asked about offshore wind. And 
our witnesses agreed offshore wind is coming and we don't have 
a trained workforce ready. That is not just about jobs working 
directly in the industry, but also about the supply chain 
aspects that are on the cusp of providing an economic boom in 
the United States.
    We have heard from many groups eager to provide the 
training and education necessary for this generation of 
workers. For example, at Bristol Community College, Mass. 
Maritime, and UMAS Dartmouth, they all recently signed a 
memorandum of understanding last June to help develop 
curriculum. Similarly, European-based wind companies have set 
up a American headquarters in Boston over the course of the 
past 6 months. And recently, Tufts University announced the 
creation of the first graduate program for offshore wind in the 
U.S., focused on structural and geotechnical engineering.
    We have enormous opportunities sitting right in front of us 
to create a new energy--a new American industry to become world 
leaders in offshore wind.
    With that framework in mind, I would like to discuss how 
the Department of Energy and the Congress can work together to 
establish the building blocks necessary for this program to 
succeed.
    I am here today to support Chairman Rush's bill, H.R. 1315, 
Blue Collar to Green Collar Jobs Development Act of 2019. This 
legislation would ensure that we are training our workforce for 
new jobs in clean energy, as well as connecting trained people 
to employment opportunities, especially for underrepresented 
and underserved populations at the heart of this bill.
    So, Mr. Campos, to begin with, as I have mentioned, 
offshore wind is coming to Massachusetts. And this provides an 
exciting new set of job opportunities. How can we make sure 
that Massachusetts and the surrounding area is ready for those 
jobs?
    Mr. Campos. Thank you, Congressman Kennedy. That is vitally 
important in all sectors of the U.S., including the sector that 
you reside in, are important. What we are doing as an office is 
increasing an initiative we have called Equity in Energy. And I 
spoke to that a little earlier in my opening statement.
    And we are engaging with various universities, community 
colleges, groups, associations to engage in those conversations 
and increase participation within those stakeholders, including 
industry, including areas of workforce development, and also 
including prison reentry. So, we are working with all these 
groups to come to a better utilization and for a better 
edification within my office and the Department in addressing 
those concerns in renewable energy.
    Mr. Kennedy. So, I appreciate that. I would just note that 
I went to the web page for the Office of Economic Impact and 
Diversity to look at the Equity in Energy program that you 
talked about in your opening statement. The web page says, 
``site under construction.'' So I just hope that you are able 
to put some more information there soon as we try to make some 
investments to try to guide some of that, the potential there 
going forward.
    Mr. Campos. Absolutely, Congressman Kennedy. We actually 
have just started this new initiative about 3 months ago. And 
so it is under construction but we are actually working towards 
this. Again, I will get your office the information as soon as 
it comes out.
    Mr. Kennedy. Thank you.
    Mr. Rush's bill allows for DOE to provide direct assistance 
to apprenticeship pro--or, excuse me, apprenticeship programs, 
labor organizations, State and local workforce development 
boards. Do you think that it would be a helpful way to train 
and prepare our workforce for jobs in the future as they 
materialize across the country, like offshore wind?
    Mr. Simmons. Through apprenticeship programs?
    Mr. Kennedy. Yes. I mean, the basic idea of trying to take 
some of those Federal programs to work locally where we have 
enormous opportunity, particularly in Southeastern New England, 
with some economically challenged communities to try to put 
this on the forefront of an emerging industry. So, want to 
figure out how you all are viewing that as a potential area of 
cooperation.
    Mr. Simmons. Unless I am mistaken, I don't think we have, 
the administration has a position on that specific aspect. One 
of the, one of the things with offshore wind is that, that my 
office is working on, is working on driving down the costs so 
we can be able to, you know, realize the potential that there 
is by having lower cost devices. But it is not enough to just 
have the devices. You also need to have people that understand 
how to install them.
    And so it sounds like that there is a lot of good 
opportunity, there is a lot of good activities going on with 
some of the things that you mentioned to make sure that there 
is a trained workforce that can actually install these machines 
offshore.
    Mr. Kennedy. I am over time. So I just want to--we have a 
tremendous opportunity to actually incubate and grow an 
industry that does not exist. It is going to need cooperation 
between Federal, State, and local governments. And Texas I 
think has, and the secretary has a record of showing, or 
growing a wind industry in Texas that I think some lessons 
there could be applied valuably to a new industry as well.
    So, look forward to working with you guys as we go forward. 
Yield back.
    Mr. Rush. The chairman now recognizes the gentleman from 
Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thanks to the 
panel for being here.
    Mr. Simmons, DOE's Weatherization Assistance Program 
provides money to States to distribute the funds to support 
low-income residents by conducting energy efficiency audits and 
weatherizing homes. Over the years, concerns have been missed--
raised about the administration of the program and its 
influence on State energy policy.
    The program has continued to receive funding, but Congress 
has not reauthorized it since it expired in 2012, as you know. 
In your testimony, while discussing the Weatherization 
Assistance Program you mentioned that, and I quote, ``Utility 
programs across the country have recognized and adopted the 
Home Energy Professional Certification Program.'' You noted 
that the administration is not seeking any funding for the 
Weatherization Assistance Program. But the bill before us 
contemplates reauthorizing a significant grant program with 
additional funding.
    And so, has DOE asked for this funding? And can you please 
talk about how your office and the Federal Government works 
with States on implementing the program?
    Mr. Simmons. So, the fist part of the question, we have not 
asked for funding. We work, we have the Weatherization, the 
Weatherization Assistance Program Office that focuses on both 
the State Energy Program and the Weatherization Program, and 
making sure that the money goes out the--the money goes out the 
door, the money that is appropriated by Congress. And 
especially on weatherization, that those funds are--we fund 
training to make sure that the funds are spent in ways that 
make sense, that we have quality installers, quality 
installation, so that the low-income families are really 
receiving the benefit of these Federal dollars.
    Those are, those are a couple of the ways that, you know, 
we have oversight of the money. But it is also important to 
make sure that the money goes out to the various States.
    Mr. Walberg. Along those lines, what do you see as the role 
here for EERE with regard to what the States are doing?
    Mr. Simmons. There is a, I think that there is an important 
oversight role that we need to play to make sure that the money 
gets spent in ways that are consistent with Federal law.
    Mr. Walberg. Appropriate, efficient?
    Mr. Simmons. Appropriate, efficient, and that the money 
gets--and the money is really going to the people specified by 
Congress and is producing quality benefits for them.
    Mr. Walberg. Does the Department view that the 
Weatherization Program is really needed?
    Mr. Simmons. Well, we, the administration doesn't have a, 
doesn't take a position on that. The budget request is zero for 
the office.
    We also understand where Congress is. And we, so money, a 
substantial amount of money is appropriated every year. And so 
we work very diligently to meet our statutory obligations and 
to carry out the program.
    Mr. Walberg. I guess with that in mind, would you commit 
here to providing technical drafting assistance----
    Mr. Simmons. Yes, sir.
    Mr. Walberg [continuing]. For this bill?
    Mr. Simmons. Yes, sir.
    Mr. Walberg. So it does meet any concerns about making sure 
the program is viable, the program is necessary, the program 
functions well and we are not wasting dollars.
    Mr. Simmons. Yes, sir.
    Mr. Walberg. Mr. Simmons, as you know, the subcommittee 
recently examined EERE's proposed process rule. At the hearing, 
you committed to following the statutory process to clear the 
backlog, which I applaud. But I was also struck by the logic of 
the proposed rule which sought to prioritize those rules that 
might return the most bang for the buck in energy savings, more 
specifically half a quad.
    With regard to the legislation before us today, would you 
like to see the similar logic included in the Weatherization 
Assistance Program or other proposed grant programs providing 
support for energy efficiency retrofit should the legislation 
move forward?
    Mr. Simmons. We don't have a position on that. That said, 
it would--metrics are helpful.
    Mr. Walberg. Would it provide EERE more flexibility?
    Mr. Simmons. I would have to hear from the experts in the 
program office on that if it would provide us with more 
flexibility.
    Mr. Walberg. Mr. Chairman, I thank you, and I yield back.
    Mr. Rush. The gentleman yields.
    The Chair now recognizes the gentleman from the great State 
of California, Mr. McNerney.
    Mr. McNerney. I thank the chairman.
    All of our States are great, aren't they, Mr. Chairman.
    Mr. Rush. All of them.
    Mr. McNerney. OK. I might be the last person asking 
questions this morning.
    Mr. Rush. And you are the greatest.
    Mr. McNerney. I appreciate the bipartisan nature of the 
hearing this morning. All the bills we are looking at are 
bipartisan, and that is a good sign.
    Energy efficiency is a fast-growing field, and it is 
creating good jobs. In particular, the Smart Energy and Water 
Efficiency Act of 2019 that I introduced with my colleague Mr. 
Kinzinger is on the agenda today. It establishes a pilot 
program for grants to demonstrate advanced energy innovation, 
technology-based solutions for water, and energy efficiency, 
including improved energy efficiency, water, wastewater and 
water reuse systems, supporting the installation of advanced 
automation systems and improved conservation quality, and 
predictive maintenance through interconnected technologies.
    Mr. Simmons, thank you for speaking out on energy 
efficiency and renewable energy program. I appreciate what you 
said about the Water Security Grant Challenge. Are there any 
resources being devoted to prizes, R&D, and public/private 
partnerships for that program?
    Mr. Simmons. There will be, yes.
    Mr. McNerney. Do you have some idea what they might look 
like?
    Mr. Simmons. They are, they are currently in development, 
so we don't have, we don't have what they are currently. But 
there is definitely the issue of water. Both water reuse in 
terms of produced waters from oil and gas development, for 
example, but also for resource recovery from wastewater. Those 
are two of the important topics that we are, that we are 
looking at. So, you can make wastewater more valuable than 
just----
    Mr. McNerney. Sure. Any idea when you will have those to 
announce?
    Mr. Simmons. I don't. Hopefully we will have something in 
the next few months.
    Mr. McNerney. You mentioned that water produced from the 
energy sector is being transformed from waste into a resource. 
One of the challenges are the chemicals that are introduced in 
this process. Is EERE committed to reducing the freshwater 
requirements using fracking, and cleaning up wastewater that is 
produced by fracking for safer use?
    Mr. Simmons. So, you know, in that grant challenge we are 
working across the Department of Energy. So that, in terms of 
fracking, that is really the Office of Fossil Energy. But as I, 
so as I understand their, what, you know, their goal is 
definitely to use less fresh water, to be able to do fracking 
in a more water-efficient manner. And then to be able to, so 
that when the produced water comes out for that water to have 
much more wider uses, for example, maybe agriculture,----
    Mr. McNerney. Right.
    Mr. Simmons [continuing]. Rather than just having to 
dispose of it in deep injection wells.
    Mr. McNerney. Well, good. I am glad to hear that.
    Is your office employing or intending to employ any 
artificial intelligence technology to improve water energy 
efficiency and predictive maintenance?
    Mr. Simmons. I would, I would say that that rings a bell. 
But I would have to look into that.
    Mr. McNerney. OK. It seems to me there is a lot of 
opportunity there.
    Mr. Simmons. There is. There are a lot of opportunities 
around the managing of complex systems such as wastewater 
treatment plant and AI. The Department of Energy is home to the 
fastest computers in the world. And, obviously, we have a lot 
of experts who look at that. And so any time that we can use 
various parts of the administration, or various parts of DOE 
can work together on an issue here, we very much try to do 
that.
    Mr. McNerney. Mr. Campos, I apologize, I missed your 
opening statement and the questions that may have come to you. 
But I am very concerned about the sort of retirement of folks 
that are qualified to work in energy systems and in water 
systems both.
    Do you have any trend lines of the number of people that 
expect to retire in the next decade and the number of people 
that are coming into the system to replace those people?
    Mr. Campos. Mr. Congressman, overall I don't have those 
numbers, but I share your concern. There is an aging population 
in all energy sectors across the board. And we are addressing 
those within our scope of work. But there is a, there is a 
point of concern there for sure. And I share that.
    Mr. McNerney. And you are, I mean, you are reaching out or 
you are giving guidelines to reach, for these agencies to reach 
out to communities across the spectrum to get people. I mean, 
there are pretty good paying jobs that we are talking about; 
right? And they are good careers. They should be attractive to 
folks.
    Mr. Campos. Yes, that is one of my, my priorities it to get 
out there within different areas of the United States and to 
reach and to provide that information. Because you are 
absolutely right, these are good paying jobs. And there is a 
lack of information and awareness towards this. And that is one 
of my priorities.
    Mr. McNerney. Are we requiring college educations for most 
of these positions in your opinion?
    Mr. Campos. This is a mix. That is why in my Equity in 
Energy we are doing STEM aptitude, which doesn't necessarily 
need college degrees. So, it is a variety. And we are seeing 
more and more that it is certificate-based, not so much a 4-
year or 2-year degree needed in many of these areas.
    Mr. McNerney. Thank you, Mr. Chairman. I yield back.
    Mr. Rush. The Chair thanks the gentleman for yielding back.
    This concludes the questioning and answering segment of the 
hearing. And so, I do want to thank the witnesses for your 
appearance today before the subcommittee. And I look forward to 
having you once again to appear before this subcommittee in the 
near future. So, thank you for your time.
    The Chair now entertains a unanimous consent request to 
enter into the record various letters and documents, including 
a letter from the National Community Action Foundation; a 
letter of support for and from the American Association of 
Blacks in Energy in relation to H.R. 1315; a letter of support 
from the American Gas Association in support of the HOMES Act; 
an April 21, 2011, GAO report on the Energy Efficiency and 
Conservation Block Grant Program; a DOE technical assistance 
comments on H.R. 1315; a letter from the U.S. Green Building 
Council; a letter of support for H.R. 1315 from the Solar 
Energy Industry Association; a letter of support of H.R. 1315 
from Duke Energy; a letter of support from the Alliance to Save 
Energy in support of H.R. 1315; a letter of support for H.R. 
1315 from the Building Performance Industry; and an article 
from the Pittsburgh Post-Gazette.
    Seeing no objection, the unanimous consent request is 
approved.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ The GAO report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF03/20190410/109300/
HHRG-116-IF03-20190410-SD989.pdf.
---------------------------------------------------------------------------
    Mr. Rush. And seeing that there are no more witnesses and 
no more Members to ask questions, the Chair will now adjourn 
this subcommittee. And thank you once again for your 
appearance.
    I remind Members that, pursuant to committee rules, they 
have 10 business days to submit additional questions for the 
record to be answered by the witnesses for whatever period. I 
ask each witness to respond promptly to any such questions that 
you may receive.
    And at this time the subcommittee stands adjourned.
    [Whereupon, at 12:54 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
